OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S
PROCUREMENT EVALUATION
PROGRAM
AUDIT REPORT NO. 9-000-06-007-P
May 11, 2006




WASHINGTON, DC 

Office of Inspector General


May 11, 2006

MEMORANDUM

TO:                  Office of Acquisition and Assistance Director, Michael F. Walsh

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Procurement Evaluation Program
                     (Report No. 9-000-06-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and included them in their entirety in Appendix II.

This report includes two recommendations—(1) the Director, Office of Acquisition and Assistance
should develop an actionable plan that will verify and ensure that USAID is effectively
implementing Executive Order 12931 and (2) the Director, Office of Acquisition and Assistance
should (a) establish a policy that requires missions to implement the recommendations made by
the evaluation teams, and (b) develop a plan to ensure that the recommendations have been
implemented.

In your written comments, you concurred with both recommendations, took final action to
address Recommendation No. 1, and proposed actions to close Recommendation No. 2.
Therefore, we consider that a management decision has been reached and final action has
been taken on Recommendation No. 1. For Recommendation No. 2, we consider that a
management decision has been reached. Please coordinate final action with USAID’s Office of
Audit, Performance and Compliance.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 2 


     Did USAID’s evaluation of its procurement operations verify and 

     ensure that USAID has effectively implemented Executive Order 

     12931 (Federal Procurement Reform)? ...................................................................... 2 


Audit Findings ................................................................................................................. 3 


     The Evaluation Division 

     Did Not Meet Its Goal.................................................................................................. 3 


     The Evaluation Division Did Not Require 

     Missions to Comply with Recommendations............................................................... 4 


Evaluation of Management Comments ......................................................................... 6 


Appendix I – Scope and Methodology .......................................................................... 7 


Appendix II – Management Comments ......................................................................... 8 

SUMMARY OF RESULTS

The Office of Inspector General’s Performance Audit Division performed this audit to
determine whether USAID’s evaluation of its procurement operations verified and
ensured that USAID effectively implemented Executive Order 12931 (Federal
Procurement Reform). (See page 2)

USAID’s evaluations of its procurement operations did not verify and ensure that USAID
effectively implemented Executive Order 12931 (Federal Procurement Reform). To
implement Executive Order 12931, USAID’s Procurement Executive1 issued the
“Reviewing and Certifying USAID’s Direct Contracting System” memorandum that
developed 29 system criteria. Each criterion identified performance standards that
defined the Agency’s methods used to carry out the system criteria. The Procurement
Executive also instituted an evaluation program, which was designed to conduct
evaluations of procurement operations of all missions every three years to ensure that
the Agency is effectively implementing Executive Order 12931. However, during the last
three fiscal years, the Office of Acquisition and Assistance/Evaluation Division
conducted a total of 9 evaluations – about 11 percent of its goal, which provided
oversight of only 3 percent or $533 million out of the $17.5 billion in USAID
procurements. (See page 3) At the end of each evaluation, the evaluation team
presented its findings to the Mission Director as well as other involved Mission staff.
Although final reports, which included findings and recommendations, were issued, the
Office of Acquisition and Assistance did not require missions to act on recommendations
unless the report reflected a “funds control”2 violation. (See page 4)

We made two recommendations to address the deficiencies identified in the report. We
recommended that (1) the Director of the Office of Acquisition and Assistance develop
an actionable plan that will verify and ensure the Agency is effectively implementing
Executive Order 12931 (see page 4); and (2) the Director of the Office of Acquisition and
Assistance (a) establish a policy that requires missions to implement the
recommendations made by the evaluation teams, and (b) develop a plan to ensure that
recommendations have been implemented. (See page 5)

The Office of Acquisition and Assistance (OAA) concurred with our recommendations
and took final action to address Recommendation No. 1. For Recommendation No. 2,
we consider that a management decision has been reached and we requested that OAA
coordinates final action with the Office of Audit, Performance and Compliance. (See
page 8)




1
  At USAID, the Director of the Office of Acquisition and Assistance serves as the
Agency’s Procurement Executive.
2
  Per USAID’s Automated Directives System 634.3.5, funds control violations include
violations of the Anti-Deficiency Act or Agency funds control policies and procedures.
.


                                                                                       1
BACKGROUND

On October 13, 1994, the President signed Executive Order 12931 (Federal
Procurement Reform). The purpose of the Executive Order was to ensure effective and
efficient spending of public funds through fundamental reforms in Government
procurement by addressing three areas,3 one of which was making procurement more
effective by: (a) reviewing and replacing procurement rules, requirements and
procedures over and above those required by statute, with guiding principles;
(b) ensuring that agency programs meet mission needs; (c) focusing on measurable
results and understanding and meeting customer needs; (d) increasing usage of
commercially available items, emphasizing past contractor performance and promoting
best value; (e) using simplified acquisition procedures for procurements under the
threshold, (f) expanding usage of the government purchase card by delegating authority
to the lowest level of user; (g) establishing clear lines of contracting authority and
accountability; (h) designating a Procurement Executive to: oversee the development of
procurement goals, guidelines and innovations, measure and evaluate performance
against stated goals, enhance the career development of the procurement workforce
and advise agency heads whether goals are being achieved; and (i) ensuring that the
agency receives the best value regarding price and technology.

To implement the requirements of Executive Order 12931, USAID named a Procurement
Executive who (a) developed and issued a memorandum, “Reviewing and Certifying
USAID’s Direct Contracting System,” which included 29 criteria for use in the Agency’s
procurement process, and (b) developed an evaluation program designed to review
procurement operations at approximately 85 USAID missions every three years. This
evaluation program was not a requirement of the Executive Order, but was a
management tool developed by USAID to assess and evaluate USAID’s compliance with
the requirements of the Order.


AUDIT OBJECTIVE
The Office of Inspector General, Performance Audit Division conducted this audit, as
part of its annual audit plan, to answer the following objective:

•	 Did USAID’s evaluation of its procurement operations verify and ensure that USAID
   has effectively implemented Executive Order 12931 (Federal Procurement Reform)?

Appendix I contains a discussion of the audit’s scope and methodology.




3
    The other two areas do not relate to the scope or objective of this audit.


                                                                                    2
AUDIT FINDINGS

USAID’s evaluations of its procurement operations did not verify and ensure that USAID
effectively implemented Executive Order 12931 (Federal Procurement Reform).

According to officials in USAID’s Office of Acquisition and Assistance/Evaluation Division,
the goal was to evaluate the procurement operations of all USAID missions every three
years. This goal was discussed and considered common knowledge; however, the goal
was not formalized in a written policy. During fiscal years 2003, 2004 and 2005, the
Evaluation Division conducted evaluations at nine missions – 11 percent of USAID’s
approximately 85 missions. The following table shows the number of procurement
actions and the value of procurement dollars that the evaluation teams reviewed for
fiscal years 2003, 2004, and 2005.

         Fiscal Years       2003     2004      2005       Total     Procurements    Percentage
                                                                      Evaluated      Evaluated
    Number of Procurement
    Actions               6,561     4,831     1,4474    12,839         5715            4%
    Value of Procurement   $6.5      $6.4      $4.6      $17.5         $5336
    Dollars               billion   billion   billion   billion        million         3%

Evaluations were designed to be performed in teams of two and were conducted over two
to three weeks at the missions. The evaluation teams utilized the memorandum,
“Reviewing and Certifying USAID’s Direct Contracting System,” which included the 29
criteria developed in response to Executive Order 12931. After the evaluation team
completed its fieldwork and held an exit conference with appropriate Mission staff, the
Director of the Office of Acquisition and Assistance would issue a report to the Mission
Director. These reports identified deficiencies and provided recommendations addressing
the deficiencies noted during fieldwork. However, the Evaluation Division did not meet its
targeted evaluation goal nor did it have a written policy requiring missions to implement the
recommendations stemming from the procurement evaluations. These issues are
discussed below.

The Evaluation Division
Did Not Meet Its Goal
The Office of Acquisition and Assistance/Evaluation Division, according to its
management, had a goal of evaluating procurement operations at all USAID missions
every three years. This goal was discussed and considered common knowledge within
the Office of Acquisition and Assistance; however, it was not formalized into a written policy
objective. According to Evaluation Division management, the goal was set for two

4
  Reflects the number of procurement actions for the Office of Acquisition and Assistance only.
5
  Due to insufficient supporting documentation, we could not verify the number of procurement
actions evaluated. We addressed this issue in discussions with Office of Acquisition and
Assistance management.
6
  Due to insufficient documentation, we could not verify the dollar amount of procurements
evaluated. We addressed this issue in discussions with Office of Acquisition and Assistance
management.


                                                                                             3
purposes: (1) to perform procurement evaluations and (2) to conduct reviews of
Contracting Officers’ warrants. During fiscal years 2003, 2004, and 2005, the Evaluation
Division conducted evaluations at only nine missions.7 According to Evaluation Division
management, during the three-year scope of this audit, the Division had an average of
two staff assigned to, among other duties, conduct evaluations. When the evaluation
program was developed in 1994, the Evaluation Division had 14 staff assigned to
conduct evaluations. According to Evaluation Division management, budget reductions
resulted in a reduction in staff, which adversely impacted the Evaluation Division’s ability
to meet its target. In addition, a huge increase in procurement operations, as a result of
USAID’s programs in Iraq and Afghanistan, contributed to the reduction of evaluations
conducted every year. Because of the small number of evaluations conducted during
fiscal years 2003, 2004 and 2005, the Office of Acquisition and Assistance/Evaluation
Division was not able to certify to its Bureau, as required by the Automated Directives
System, section 596.3.6, on the overall adequacy and effectiveness of management
controls. In addition, the Evaluation Division could not provide reasonable assurance
that USAID is effectively implementing Executive Order 12931. Given anticipated
budget and human resource constraints we are not making a recommendation to
increase Evaluation Division staffing. Furthermore, the Office of Acquisition and
Assistance is assessing whether the evaluation program is the best tool to ensure the
implementation of Executive Order 12931.

       Recommendation No. 1: We recommend that the Director of the Office of
       Acquisition and Assistance develop a plan that will verify and ensure that
       the Agency is effectively implementing Executive Order 12931.



The Evaluation Division Did Not
Require Missions to Comply
With Recommendations
At the end of every evaluation, the evaluation teams discussed their results with
appropriate Mission staff. Subsequently, the Director of the Office of Acquisition and
Assistance issued a report to the Mission Director, which included findings and
recommendations noted during fieldwork. However, the Evaluation Division did not
require missions to implement the recommendations resulting from the evaluations. The
Government Accountability Office’s Standards for Internal Control in the Federal
Government, Monitoring section states: “Managers are to (1) promptly evaluate findings
from audits and other reviews, including those showing deficiencies and
recommendations reported by auditors and others who evaluate agencies’ operations,
(2) determine proper actions in response to findings and recommendations from audits
and reviews, and (3) complete, within established time frames, all actions that correct or
otherwise resolve the matters brought to management’s attention.” The Evaluation
Division staff was not aware of this criterion. In addition, evaluation team members
viewed their findings and recommendations as suggestions because the team members
felt that it was important for the Contracting Officers to maintain their autonomy. The
evaluation team members also stated that missions were required to implement

7
 We determined the number of mission evaluations based on the evaluation files provided to us.
We did not find any other source to confirm the actual number.


                                                                                            4
recommendations only when “funds control” violations were noted. As a result, there is
no value added and no justification for travel costs and human resources used in
performing the evaluations if missions do not address or implement issues identified by
the evaluation teams.

       Recommendation No. 2: We recommend that the Director of the Office of
       Acquisition and Assistance (a) establish a policy that requires missions to
       implement the recommendations made by the evaluation teams, and (b)
       develop a plan to make certain that recommendations have been
       implemented.




                                                                                     5
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, the Office of Acquisition and Assistance (OAA)
provided an actionable plan that will verify and ensure that USAID is effectively
implementing Executive Order 12931.           Based on the response addressing
Recommendation No. 1, we consider that final action has been taken.


OAA plans to issue an Acquisition and Assistance Policy Directive on October 1, 2006
that will address Recommendation No. 2. Based on the proposed action to address
Recommendation No. 2, we consider that a management decision has been reached.
When this action is completed, OAA should coordinate final action with the Office of
Audit, Performance and Compliance. Appendix II contains management’s comments in
their entirety (without attachments).




                                                                                  6
                                                                          APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted government auditing standards. The purpose was
to determine whether USAID’s evaluation of its procurement operations verified and
ensured that USAID was effectively implementing Executive Order 12931. We
conducted this audit at the Office of Acquisition and Assistance/Evaluation Division in
Washington, D.C. from October 25, 2005 to January 19, 2006. We reviewed the
management controls relevant to the audit objective to determine how the evaluation
team collected and verified the procurement data, and whether there was a system for
follow up on evaluation findings and recommendations.

The scope of our audit covered procurements conducted in fiscal years 2003, 2004 and
2005. We reviewed documentation of evaluation files, and how the Evaluation Division
monitored and followed-up on evaluation results. However, we did not assess the
quality of the evaluations because the Evaluation Division had not developed standards
or a standardized set of procedures and policies for conducting their evaluations. We
also reviewed Executive Order 12931 “Federal Procurement Reform,” and USAID
policies and procedures for evaluating its procurement process. We reviewed files for
seven of the nine evaluations conducted during fiscal years 2003, 2004 and 2005, which
covered a total of 12,839 procurement actions and represented $17.5 billion dollars in
procurement actions. Supporting documentation was not available for two evaluation
reports, and we discussed this issue with management in the Office of Acquisition and
Assistance.

Methodology
We interviewed Office of Acquisition and Assistance officials, including the Evaluation
Division officials, at USAID/Washington to: (1) gain an understanding of USAID’s
procurement evaluation process and (2) obtain an understanding of management
controls related to the development of that process. Furthermore, we reviewed
documents and files related to the evaluation process. We did not use any statistical
sampling. To determine whether the Office of Acquisition and Assistance/Evaluation
Division met its goal, we used the following materiality thresholds. If the number of
evaluations conducted was more than 90 percent of the target, the opinion would be
positive. Whereas, if the evaluations conducted were between 80 percent and 90
percent, of the target the opinion would be qualified, and if the number of evaluations
conducted was below 80 percent of the target, the opinion would be negative.




                                                                                     7
                                                                           APPENDIX II 




MANAGEMENT COMMENTS

                                     April 27, 2006



MEMORANDUM

TO:	          Mr. Steven H. Bernstein, Director, IG/A/PA

FROM:	        Lynn Kopala, Acting Director, M/OAA /s/

SUBJECT:	     Draft Audit Report Entitled “Audit of USAID’s Procurement Evaluation
              Program”, Recommendation Nos. 1 and 2(a) and 2(b)



The subject draft Audit Report, has two recommendations which the Office of Acquisition
and Assistance requests final action on the subject Recommendation of the subject audit
report based on the actions performed.

Recommendation No. 1: The Director of the Office of Acquisition and Assistance
develop an actionable plan that will verify and ensure the Agency is effectively
implementing Executive Order 12931.

Management Decision: M/OAA concurs with Recommendation No. 1. M/OAA has
developed the attached actionable plan that includes implementation of the new
Balanced Scorecard business model which will verify and ensure that USAID is
effectively implementing Executive Order 12931. Actions included in the plan that have
been completed thus far include developing tools for baseline, establishing elements of
self assessment, developing milestones, and developing scoring/formatting/validation
metrics.

Recommendation No. 2: The Director of the Office of Acquisition and Assistance:

       (a) 	establish a policy that requires missions to implement the recommendations
            made by the evaluation teams; and
       (b) 	develop a plan to ensure that the recommendations have been implemented.

Management Decision: With regard to Recommendation No. 2(a), M/OAA concurs and
in accordance with the action plan, policy will be issued by the Procurement Executive
via an Acquisition and Assistance Policy Directive (AAPD) on October 1, 2006.



                                          -2-




                                                                                          8
                                                                         APPENDIX II 



With regard to Recommendation No. 2(b), per the Action Plan, there is a built-in
mechanism in the web-based scorecard that requires missions to address each
recommendation from the previous year and how it has been implemented. This is in
addition to the regular web-based scorecard information which will be certified and
submitted by each mission on a yearly basis.

Conclusion: Because the actions M/OAA has taken as described above comply with
the recommendations in the draft audit report, we request that the subject Audit
Recommendations be closed.

Attachments: (a) Action Plan
             (b) Balance Scorecard




                                                                                      9
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
